Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE INAPPROPRIATELY PAID
 HOSPITALS’ INPATIENT CLAIMS
SUBJECT TO THE POSTACUTE CARE
      TRANSFER POLICY




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       May 2014
                                                     A-09-13-02036
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Medicare inappropriately paid hospital inpatient claims subject to its postacute care
 transfer policy, resulting in overpayments totaling $19.5 million over 4 years. The
 hospitals improperly coded claims as discharges to home or certain types of health care
 institutions rather than as transfers to postacute care.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with Medicare’s postacute care transfer policy. These hospitals
transferred inpatients to certain postacute care settings but claimed the higher reimbursement
associated with discharges to home. In those reports, we recommended that the Centers for
Medicare & Medicaid Services (CMS) provide education to make hospitals aware of the transfer
policy and require Medicare contractors to implement system edits to prevent and detect
postacute care transfers that are miscoded as discharges. CMS generally concurred with our
recommendations. However, more recent OIG reviews found that Medicare contractors made
overpayments of approximately $12.2 million to hospitals that did not comply with the policy.

The objective of this review was to determine whether Medicare appropriately paid hospitals’
inpatient claims subject to the postacute care transfer policy.

BACKGROUND

Medicare’s postacute care transfer policy distinguishes between discharges and transfers of
beneficiaries from hospitals under the inpatient prospective payment system. Consistent with the
policy, Medicare makes full Medicare Severity Diagnosis-Related Group (MS-DRG) payments
to hospitals that discharge inpatients to their homes or certain types of health care institutions,
such as hospice settings. In contrast, for specified MS-DRGs, Medicare pays hospitals that
transfer inpatients to certain postacute care settings, such as to homes for the provision of home
health services and to skilled nursing facilities, a per diem rate for each day of the stay, not to
exceed the full MS-DRG payment for a discharge. Therefore, the full MS-DRG payment is
either higher than or equal to the per diem payment dependent on the patient’s length of stay in
the hospital. CMS requires hospitals to include a two-digit patient discharge status code on all
inpatient claims to identify a beneficiary’s status at the conclusion of an inpatient stay. Whether
Medicare pays for a discharge or a transfer depends on the status code. In 2004, CMS
implemented Common Working File (CWF) edits to identify transfers improperly coded as
discharges.

Our review covered approximately $84 million in Medicare Part A payments for 6,635 inpatient
claims with specified MS-DRGs in which beneficiaries were transferred to postacute care and
that had dates of service during the period January 2009 through September 2012. These claims
were submitted by 1,672 short-term acute-care hospitals. This review did not include the claims
identified in the recent OIG reviews of Medicare claims subject to the postacute care transfer
policy.



Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                     i
WHAT WE FOUND

Medicare inappropriately paid 6,635 Medicare claims subject to the postacute care transfer
policy. The hospitals used incorrect patient discharge status codes on their claims, indicating
that the patients were discharged to home or certain types of health care institutions rather than
transferred to postacute care. Of these claims, 91 percent were followed by claims for home
health services, and 9 percent were followed by claims for services in other postacute care
settings. Medicare overpaid the hospitals by $19,471,432.

Medicare overpaid the hospitals because the CWF edits related to postacute care transfers were
not working properly. Specifically, some Medicare contractors did not always receive automatic
adjustments, and the CWF edits erroneously calculated the number of days between the dates of
service on the inpatient claim and the home health claim. Furthermore, according to CMS
officials, the edits could not properly match inpatient claims with all home health claims because
the range of provider numbers that identify home health agencies was not complete. As a result
of our review, CMS officials indicated that they have taken actions to correct the CWF edits.

Medicare could have saved approximately $31.7 million over 4 years if it had had controls to
ensure that the CWF edits were working properly. This amount consisted of overpayments
identified in this review and recent OIG reviews.

WHAT WE RECOMMEND

We recommend that CMS:

    •   direct the Medicare contractors to recover the $19,471,432 in identified overpayments in
        accordance with CMS’s policies and procedures;

    •   direct the Medicare contractors to identify any transfer claims on which the patient
        discharge status was coded incorrectly and recover any overpayments after our audit
        period;

    •   correct the CWF edits and ensure that they are working properly; and

    •   educate hospitals on the importance of reporting the correct patient discharge status codes
        on transfer claims, especially when home health services have been ordered.

CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS partially concurred with our first and second
recommendations and concurred with our third and fourth recommendations. Regarding the first
and second recommendations, CMS stated that some of the claims in our review had exceeded or
would soon exceed the 4-year claim-reopening period and that CMS does not currently mandate
areas for the Medicare contractors to review. Regarding the third and fourth recommendations,
CMS provided information on actions that it had taken or planned to take to address the
recommendations.


Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                        ii
We encourage CMS to (1) recover the identified overpayments in accordance with its policies
and procedures and (2) continue to identify any transfer claims on which the patient discharge
status was coded incorrectly and recover any overpayments after the audit period.




Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                    iii
                                                     TABLE OF CONTENTS

INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare’s Inpatient Prospective Payment System ........................................... 1
                 Postacute Care Transfer Policy .......................................................................... 1
                 Medicare Contractors ......................................................................................... 2
                 Medicare Claims Processing Systems ............................................................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Federal Requirements .................................................................................................... 3

           Hospitals Improperly Coded Claims as Discharges to Home or Certain Types
            of Health Care Institutions Rather Than as Transfers to Postacute Care .................... 4

           Edits Were Not Working Properly To Prevent Overpayments to Hospitals ................. 5

RECOMMENDATIONS ........................................................................................................... 6

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..................... 6

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 7

           B: Audit Scope and Methodology................................................................................. 8

           C: CMS Comments ......................................................................................................10




Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                                                                     iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with Medicare’s postacute care transfer policy. These hospitals
transferred inpatients to certain postacute care settings but claimed the higher reimbursement
associated with discharges to home. In those reports, we recommended that the Centers for
Medicare & Medicaid Services (CMS) provide education to make hospitals aware of the transfer
policy and require Medicare contractors to implement system edits to prevent and detect
postacute care transfers that are miscoded as discharges. CMS generally concurred with our
recommendations. However, in more recent OIG reviews of hospitals’ compliance with
Medicare billing requirements and reviews of certain Medicare claims subject to the postacute
care transfer policy in Jurisdictions 1 and 2, we found that Medicare contractors made
overpayments of approximately $12.2 million to hospitals that did not comply with the policy.
(Appendix A contains a list of the previously issued OIG reports on hospitals’ submissions of
Medicare claims subject to the postacute care transfer policy.)

OBJECTIVE

Our objective was to determine whether Medicare appropriately paid hospitals’ inpatient claims
subject to the postacute care transfer policy.

BACKGROUND

Medicare’s Inpatient Prospective Payment System

The Social Security Act (the Act) established the inpatient prospective payment system (IPPS)
for inpatient hospital services provided to Medicare beneficiaries (§§ 1886(d) and (g)). Under
the IPPS, CMS pays hospital costs at predetermined rates for patient discharges. A hospital
inpatient is considered discharged from a hospital when the patient is formally released from or
dies in the hospital.

CMS’s payment rates vary according to the Medicare Severity Diagnosis-Related Group
(MS-DRG) to which a beneficiary’s stay is assigned. The MS-DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay.

Postacute Care Transfer Policy

Section 4407 of the Balanced Budget Act of 1997, P.L. No. 105-33, added section 1886(d)(5)(J)
to the Act to establish the Medicare postacute care transfer policy. This provision and its
implementing regulations (42 CFR § 412.4(c)) state that a postacute care transfer occurs when a
beneficiary whose hospital stay was classified within specified MS-DRGs is discharged from an
IPPS hospital in one of the following situations:




Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                        1
    •   The beneficiary is admitted on the same day to a hospital or hospital unit that is not
        reimbursed under the IPPS.

    •   The beneficiary is admitted on the same day to a skilled nursing facility.

    •   The beneficiary receives home health services from a home health agency, the services
        are related to the condition or diagnosis for which the beneficiary received inpatient
        hospital services, and the services are provided within 3 days of the beneficiary’s hospital
        discharge date.

Medicare makes the full MS-DRG payment to a hospital that discharges an inpatient to home or
certain types of health care institutions, such as hospice settings. In contrast, Medicare pays a
hospital that transfers an inpatient to postacute care a per diem rate for each day of the stay, not
to exceed the full MS-DRG payment that would have been made if the inpatient had been
discharged to home. Therefore, the full MS-DRG payment is either higher than or equal to the
per diem payment dependent on the patient’s length of stay in the hospital.

CMS requires hospitals to include a two-digit patient discharge status code on all inpatient
claims to identify a beneficiary’s status at the conclusion of an inpatient stay. Whether Medicare
pays for a discharge or a transfer depends on the status code.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for hospital services. The contractors’ responsibilities include determining
reimbursement amounts, conducting audits, and safeguarding against fraud and abuse. Each
Medicare contractor processes Medicare claims for a defined geographic area, or “jurisdiction.”

Medicare Claims Processing Systems

Medicare contractors use the Fiscal Intermediary Standard System (FISS) to process inpatient
claims submitted by hospitals in their designated jurisdictions. After being processed through
the FISS but before payment, all Medicare contractor claims are sent to CMS’s Common
Working File (CWF) system for verification, validation, and payment authorization. Once the
CWF has processed a claim, it electronically transmits information to the contractor regarding
potential errors on the claim. Both the FISS and CWF contain edits to prevent and detect
overpayments.

On January 1, 2004, CMS implemented CWF edits 1 to identify improperly coded hospital claims
and instructed the Medicare contractors to automatically cancel hospital claims that had incorrect
patient discharge status codes. On March 15, 2004, CMS revised these edits and established new
criteria for an automatic claim cancellation. Specifically, if a postacute care claim is processed
and paid before a corresponding inpatient claim is processed, prepayment edits for inpatient
claims are designed to reject the incoming inpatient claim. However, if an inpatient claim is
1
 The CWF edits operate generally in the same way for all types of postacute care transfers depending on the
postacute care setting as specified in 42 CFR § 412.4(c).


Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                                 2
processed and paid before a corresponding postacute care claim is processed, postpayment edits
are designed to (1) adjust the claim automatically by canceling the original inpatient claim and
(2) identify the overpayment. In both instances, the hospital can submit an adjusted claim with
the appropriate discharge status code to receive the per diem payment.

HOW WE CONDUCTED THIS REVIEW

Our review covered $83,921,870 in Medicare Part A payments for 6,635 inpatient claims with
specified MS-DRGs in which beneficiaries were transferred to postacute care and that had dates
of service during the period January 2009 through September 2012. These claims were
submitted by 1,672 short-term acute-care hospitals. This review did not include the claims
identified in the recent OIG reviews of Medicare claims subject to the postacute care transfer
policy.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute care transfer policy
that were improperly coded as discharges to home or certain types of health care institutions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                FINDINGS

Medicare inappropriately paid 6,635 Medicare claims subject to the postacute care transfer
policy. The hospitals used incorrect patient discharge status codes on their claims, indicating
that the patients were discharged to home or certain types of health care institutions rather than
transferred to postacute care. Of these claims, 91 percent were followed by claims for home
health services, and 9 percent were followed by claims for services in other postacute care
settings. Medicare overpaid the hospitals by $19,471,432. Medicare overpaid the hospitals
because the CWF edits related to transfers to home health care, skilled nursing facilities, and
non-IPPS hospitals were not working properly.

FEDERAL REQUIREMENTS

Federal regulations state that for a beneficiary whose hospital stay is classified within one of the
specified MS-DRGs, a discharge from an IPPS hospital to a qualifying postacute care setting is
considered a transfer (42 CFR § 412.4(c)). The qualifying postacute care settings are




Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                          3
(1) hospitals or hospital units that are not reimbursed under the IPPS, 2 (2) skilled nursing
facilities, and (3) home health care if services are provided within 3 days of the discharge.

CMS requires hospitals to include patient discharge status codes on all inpatient claims. 3 When
a beneficiary is transferred to a setting subject to the postacute care transfer policy, a specific
discharge status code should be used, depending on the type of postacute care setting. For
example, discharge status code 03 should be used when the beneficiary is transferred to a skilled
nursing facility, discharge status code 06 should be used when a beneficiary is transferred to
home for home health services, and discharge status code 62 should be used when a beneficiary
is transferred to an inpatient rehabilitation facility. 4 The Federal Register emphasizes that the
hospital is responsible for coding the bill on the basis of its discharge plan for the patient. If the
hospital subsequently determines that postacute care was provided, it is responsible for either
coding the original bill as a transfer or submitting an adjusted claim. 5

HOSPITALS IMPROPERLY CODED CLAIMS AS DISCHARGES TO HOME OR
CERTAIN TYPES OF HEALTH CARE INSTITUTIONS RATHER THAN AS
TRANSFERS TO POSTACUTE CARE

Medicare inappropriately paid 6,635 Medicare claims subject to the postacute care transfer
policy during the period January 2009 through September 2012. Hospitals improperly coded
these claims as discharges to home (4,613 claims) or to certain types of health care institutions
(2,022 claims) rather than as transfers to postacute care by using the incorrect patient discharge
status codes. Of these claims:

      •    6,053 claims were followed by claims for home health services provided within 3 days of
           the discharge date, resulting in $17,513,197 of overpayments to the discharging hospitals;

      •    507 claims were followed by claims for skilled nursing services provided on the same
           day as the discharge date, resulting in $1,620,255 of overpayments to the discharging
           hospitals; and

      •    75 claims were followed by claims for admissions to non-IPPS hospitals or hospital units
           on the same day as the discharge date, resulting in $337,980 of overpayments to the
           discharging hospitals.

2
 The Act refers to hospitals and hospital units that are not reimbursed under the IPPS as “not subsection (d)
hospitals” (§ 1886(d)(5)(J)). The Act also identifies the hospitals and hospital units that are excluded from the term
“subsection (d) hospitals,” such as psychiatric hospitals and units, rehabilitation hospitals and units, children’s
hospitals, long-term-care hospitals, and cancer hospitals (§ 1886(d)(1)(B)).
3
    Medicare Claims Processing Manual, Pub. No. 100-04, chapter 25, § 75.2.
4
 Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, § 40.2.4; Program Memorandum, Transmittal
No. A-01-39, Mar. 22, 2001, Change Request 1565; Medicare Learning Network’s MLN Matters Number: SE0801;
and MLN Matters Number: MM4046, Related Change Request 4046.
5
    63 Fed. Reg. 40954, 40980 (July 31, 1998). See also MLN Matters Number: SE0408.



Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                                        4
As a result, Medicare overpaid 1,672 hospitals by $19,471,432. The overpayments represented
the difference between the full MS-DRG payments and the per diem rates that should have been
applied.

EDITS WERE NOT WORKING PROPERLY TO PREVENT OVERPAYMENTS
TO HOSPITALS

Medicare overpaid the hospitals because the CWF edits related to transfers to home health care,
skilled nursing facilities, and non-IPPS hospitals were not working properly. Specifically, some
Medicare contractors did not always receive the automatic adjustments that identify
overpayments on inpatient claims. These contractors did not update their “Intermediary Name
and Address” files. To automatically adjust a claim, CWF edits rely on updated Medicare
contractor files to match an inpatient claim with the corresponding postacute care claim.

In addition, the CWF edits specifically related to transfers to home health care had the following
issues:

    •    The edits erroneously calculated the number of days between the dates of service on the
         inpatient claim and the home health claim. Rather than calculating the number of days
         between the inpatient and home health claims as 3 days after the date of discharge from
         the inpatient hospital, the edits erroneously calculated the number of days as 2 days after
         the date of discharge.

    •    According to CMS officials, the edits could not properly match inpatient claims with all
         home health claims because the range of provider numbers that identify home health
         agencies was not complete.

As a result of our review, CMS notified the CWF maintenance contractors that Medicare
contractors were not always receiving the automatic adjustments that identify overpayments on
inpatient claims. In addition, CMS published Change Request 8139 (Transmittal 1167),
effective July 1, 2013, to notify Medicare contractors that CMS had corrected the calculation of
the number of days in the edits related to transfers to home health care. CMS also plans to
correct the range of provider numbers in the edits that identify home health agencies.

Medicare could have saved approximately $31.7 million over 4 years if it had had controls to
ensure that the CWF edits were working properly. 6




6
 The $31.7 million consisted of the $19.5 million in overpayments identified in this report and the $12.2 million in
overpayments identified in recent OIG reviews covering calendar years 2009 through 2012.


Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                                          5
                                        RECOMMENDATIONS

We recommend that CMS:

    •   direct the Medicare contractors to recover the $19,471,432 in identified overpayments in
        accordance with CMS’s policies and procedures;

    •   direct the Medicare contractors to identify any transfer claims on which the patient
        discharge status was coded incorrectly and recover any overpayments after our audit
        period;

    •   correct the CWF edits and ensure that they are working properly; and

    •   educate hospitals on the importance of reporting the correct patient discharge status codes
        on transfer claims, especially when home health services have been ordered.

        CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS partially concurred with our first and second
recommendations and concurred with our third and fourth recommendations:

    •   Regarding the first recommendation, CMS stated that some of the claims in our review
        had exceeded or would soon exceed the 4-year claim-reopening period. CMS stated that
        upon receipt of the overpayment data from OIG, CMS would determine which claims
        could be collected consistent with its policies and procedures.

    •   Regarding the second recommendation, CMS stated that it had made updates to the CWF
        edits in 2013, resolving some of the vulnerabilities that we identified. CMS also stated
        that although it does not currently mandate areas for the Medicare contractors
        (specifically, the Recovery Auditors) to review, it would share our report with the
        Recovery Auditors.

    •   Regarding the third and fourth recommendations, CMS provided information on actions
        that it had taken or planned to take to address the recommendations.

CMS’s comments are included in their entirety as Appendix C.

We provided to CMS the claim data containing the overpayment information that it requested.
We encourage CMS to (1) recover the identified overpayments in accordance with its policies
and procedures and (2) continue to identify any transfer claims on which the patient discharge
status was coded incorrectly and recover any overpayments after the audit period.




Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                      6
          APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                   Report Title                                           Report Number    Date Issued
Noridian Healthcare Solutions, LLC, Inappropriately                       A-09-13-02035    11/26/2013
Paid Hospitals’ Medicare Claims Subject to the
Postacute Care Transfer Policy in Jurisdiction 2
Medicare Compliance Review of Community Regional                           A-09-12-02071    6/11/2013
Medical Center7
Palmetto GBA, LLC, Inappropriately Paid Hospitals’                         A-09-12-02038    5/29/2013
Medicare Claims Subject to the Postacute Care
Transfer Policy in Jurisdiction 1
Medicare Compliance Review of Cedars-Sinai                                 A-09-12-02048    5/15/2013
Medical Center for the Period January 1, 2008,
Through June 30, 20117
Medicare Compliance Review of California Pacific                           A-09-12-02027    1/10/2013
Medical Center, Pacific Campus, for Calendar Years
2009 and 20107
Medicare Compliance Review of Hoag Memorial                                A-09-12-02012   12/10/2012
Hospital Presbyterian for Calendar Years 2008
Through 2011 7
Medicare Overpaid Some Fiscal Year 2008 and 2009                           A-04-11-00078    4/24/2012
Jurisdiction 4 Inpatient Rehabilitation Facility Claims
That Did Not Comply With Transfer Regulations
Medicare Compliance Review of John Muir Medical                            A-09-11-02060    2/23/2012
Center, Walnut Creek, for Calendar Years 2008
Through 20107
Medicare Compliance Review of University of                                A-09-11-02055    2/23/2012
California, San Diego, Medical Center for Calendar
Years 2008 and 20097
Medicare Compliance Review of University of                                A-09-11-02034    9/21/2011
California, San Francisco, Medical Center for
Calendar Years 2008 and 20097
Hospital Compliance With Medicare’s Postacute Care                         A-04-07-03035    2/27/2009
Transfer Policy During Fiscal Years 2003 Through
2005




7
    The postacute care transfer issue was only one of the findings in this report.


Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                            7
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered $83,921,870 in Medicare Part A payments for 6,635 inpatient claims with
specified MS-DRGs in which beneficiaries were transferred to postacute care and that had dates
of service during the period January 2009 through September 2012. These claims were
submitted by 1,672 short-term acute-care hospitals. This review did not include the claims
identified in the recent OIG reviews of hospitals’ compliance with Medicare billing requirements
and reviews of certain Medicare claims subject to the postacute care transfer policy in
Jurisdictions 1 and 2.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute transfer policy that
were improperly coded as discharges to home or certain types of health care institutions. We
limited our review of CMS’s internal controls to those applicable to implementation of
Medicare’s postacute care transfer policy. We did not evaluate the medical records of the IPPS
hospitals from which the beneficiaries in our review were discharged to determine whether there
was a written plan of care for the provision of home health services.

We conducted our audit from December 2012 to June 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History File to identify inpatient claims with specified
        MS-DRGs during our audit period for beneficiaries who received certain postacute care
        services after inpatient stays;

    •   used computer matching, data mining, and data analysis techniques to identify for review
        6,635 claims coded as discharges to home or certain types of health care institutions;

    •   reviewed data from CMS’s CWF to determine whether a selected number of claims were
        canceled or adjusted before our review;

    •   interviewed CMS officials and reviewed documentation provided by them to understand
        how the CWF edits work and to determine why Medicare made payments for the
        miscoded claims;

    •   used CMS’s PC Pricer to reprice each improperly paid claim to determine the transfer
        payment amount, compared the repriced payment with the actual payment, and



Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                     8
        determined the value of the overpayment; 8 and

    •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




8
  CMS’s PC Pricer is software used to estimate Medicare payments. Because of timing differences in the data used
to determine the payments, the estimated payments may not exactly match the actual claim payments.


Medicare Claims Subject to the Postacute Care Transfer Policy (A-09-13-02036)                                      9
                                                  APPENDIX C: CMS COMMENTS 



      ,
          ..,;-...•oc.. j'~

  (                ~          DEPARTMENT OF HEALTH & HUMAN SERViCES                                  ~nters for   Medicare & Medicaid SeNiceS

      ~~~:S~                                                                                         Administrator
                                                                                                     Washingtoo, DC 20201




                              DATE:           MAR 13 2014

                              TO:


                              FROM:


                              SUBJECT:      Office of Inspector General (OIG) Draft Report: Medicare Inappropriately Paid
                                            Hospitals' Inpatient Claims Subject to the Postacute Care Transfer Policy
                                            (A-09-13-02036)


                              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                              comment on the above-mentioned OIG report. OlG's recommendations and the CMS response
                              to those recommendations are discussed below.

                              O IG Reco mmendation

                              The OIG recommends CMS to direct Medicare contractors to recover the $19,471,432 in
                              identified overpayments in accordance with CMS's policies and procedures.

                              CMS Response

                              The CMS partially concurs with this recommendation . OIG reviewed claims that had dates of
                              service during the period ofJanuary 2009 through September 2012. The calendar year (CY)
                              2009 claims identified in this audit have exceeded the 4-year claim reopening period as
                              mandated by 42 CFR 405.980(b)(2). In addition, some of the CY 2010 claims have or will soon
                              exceed the claim reopening period. Upon the receipt of the overpayment data from 010, CMS
                              will analyze each overpayment to determine which claims can be collected consistent with
                              agency's policies and procedures. We request that OIG furnish CMS with the claims data that
                              includes, at a minimum, the provider number, claim payment amount, overpayment amount,
                              Medicare contractor number, claim paid date, health insurance claim number, and
                              claim/document control number.

                              OI G Recommendation

                              The OIG recommends CMS to direct the Medicare contf"cictors to identify any transfer claims on
                              which the patient discharge status was coded incorrectly and recover any overpayments after
                              their audit period.




.Medicare Claims Subject to the Postacute Care Trcms.for Policy (A-09-13-02036)                                                                 10
              Page 2- David R. Levinson


              CMS Response

              The CMS partially concurs with this recommendation. CMS made updates to the common
              working file (C WF) edits in 2013, resolving some of the vulnerabilities identified in this OIG
              report. The remaining claims would have to be manually researched and collected. Therefore,
              while CMS does not currently mandate areas for Recovery Auditor review, we will share this
              report with them.

              Recommendation

              The OIG recommends CMS correct the CWF edits and ensure that they are working properly.

              CMS Response

              The CMS concurs with the recommendation. CMS corrected the calculation ofthe number of
              days between the inpatient hospital claim discharge date and the home health care ' from' date
              with the implementation of change request (CR) 8139 on July I , 2013. The expansion ofthe
              home health provider number range was corrected with the implementation ofCR 8367 on
              January 6, 2014. Inpatient hospital claims previously processed with full Medicare Severity
              Diagnosis-Related Group payment have been adjusted to correct the patient discharge status code
              to pay the post-acute transfer payment.

              On August 26,2013 CMS issued Technical Direction Letter (TDL) 130513 - Review of
              Intermediary Name and Address File and Report 4 I 8 instructing Medicare Administrative
              Contractors (MACs) to correct their Intermediary Name and Address file which will allow CWF
              InforrnatiOJ.lal Unsolicited Response (IUR) to process automatically. In addition we instructed
              MACs to routinely review Report 418 and process the IURs manually.

              Recommendation

              The OIG recommends CMS to educate hospitals on the importance ofreporting the correct
              patient discharge status codes on transfer claims, especially when home health services have
              been ordered.

              CMS Response

              The CMS concurs with the recommendation and we will provide a Medicare Learning Network
              Matters® article educating hospitals and Medicare contractors on the correct patient discharge
              status codes to use when patients are discharged from the hospital.

              The CMS thanks the OIG for the work done on this issue and look forward to working with the
              OIG in the future .




.Medicare Claims Subject to the Postacute Care Trcms.for Policy (A-09-13-02036)                                 11
